No. 20-5003

In the Supreme Court of the United States
RICHARD B. WOODS,
Petitioner
v.
STATE OF LOUISIANA,
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE
LOUISIANA SECOND CIRCUIT COURT OF APPEALS

PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Opposition was served on each party, or that party’s counsel, as listed below, on
November 16, 2020. Service was made by United States mail—with first-class
postage prepaid.
G. Ben Cohen
The Promise of Justice Initiative
1024 Elysian Fields
New Orleans, LA 70117
I declare under penalty of perjury that the following is true and correct.
Executed on November 16, 2020.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

